HARTZOG LAW GROUP
1903 N. Harrison Avenue
Suite 200
Cary, NC 27513
hartzoglawgroup.com

DAN M. HARTZOG, JR.
Attorney at Law
DIRECT DIAL/FAX: 9 1 9 - 4 8 0 - 2 4 5 0
dhartzogjr@hartzoglawgroup.com

October 28, 2020
Via Electronic Filing and Federal Express
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Nancy Massenburg, Petitioner v. Innovative Talent
Solutions, Inc. et al., Respondents | No. 20-407
To the Clerk of Court:
We represent Respondent, Innovative Talent Solutions, Inc. (“ITS
or “Respondent”), in the above-described case. The Petition for
Certiorari reflects that it was filed July 23, 2020, but was not docketed
until September 29, 2020. Although the pro se Petitioner filed a Notice
of Intent to file a Petition for Certiorari, counsel for Respondent
concluded that she had not filed a petition after: (i) the time for such a
filing passed, taking into account the extension allowed by the Court’s
March 19, 2020 Order; (ii) counsel for Respondent did not receive a
copy of the Petition from Petitioner; and (iii) uses of the Docket Search
function of the United States Supreme Court website through August
31, 2020 did not reflect that a Petition had been filed and docketed by
Petitioner. On October 2, 2020, counsel for Respondent first learned of
the existence of the Petition, when the Remark from the United States
Supreme Court notifying the Court of the Petition was docketed and
the parties received the Notice of Electronic Filing from the Clerk of the
United States Court of Appeals for the Fourth Circuit.

Respondent’s brief in opposition to the Petition for Writ of
Certiorari is due on or before October 29, 2020. Pursuant to Rule 30.4
of the Rules of the Supreme Court of the United States, we request a
thirty (30) day extension of time to file a brief in opposition to the
Petition for Writ of Certiorari. Because the end of the thirty-day period
would fall on Saturday, November 28, 2020, during the Thanksgiving
holiday weekend, the Respondent respectfully requests that the due
date be set as Monday, November 30, 2020.
I am assisting as counsel of record in this case until counsel of the
Firm who represented Innovative Talent Solutions, Inc. in the District
Court and at the Fourth Circuit Court of Appeals, Katie Weaver
Hartzog and Katherine Barber-Jones, move for admission to practice
before this Court. Katherine Barber-Jones has been working on the
brief, but was recently diagnosed with breast cancer and began weekly
chemotherapy treatments on October 1, 2020, the day before counsel
learned of the Petition, which have delayed her work on the brief and
other matters and, in supporting her, increased the workload of the
other four attorneys of our Firm.
For these reasons, we respectfully request an extension of time
through and including November 30, 2020 to file a brief in opposition to
the Petition for Writ of Certiorari. This correspondence has been
electronically filed in the online docket for this matter, pursuant to the
Guidelines for Submission of Documents to the Supreme Court’s
Electronic Filing System and the April 17, 2019 Guidance Concerning
Clerk’s Office Operations, and mailed to pro se Petitioner Nancy
Massenburg.
Thank you for your attention.
Respectfully submitted,
s/Dan M. Hartzog Jr.
DAN M. HARTZOG JR.
Cc:

Nancy Massenburg, Petitioner (via U.S. Priority Mail)

No. 20-407
Nancy Massenburg, Petitioner, v. Innovative Talent Solutions,
Inc. et al., Respondents
AFFIDAVIT OF SERVICE
I, Dan Hartzog Jr., of lawful age, being duly sworn, upon my oath
state that I did, on the 28th day of October, 2020, have a copy of the
foregoing correspondence to the Clerk of Court pursuant to Rule 30.4
served upon the parties by U.S. Priority Mail to the following:
Nancy D. Massenburg
Post Office Box 224
Blairs, Virginia 24527
Petitioner

This the 28th day of October, 2020.
s/ Dan M. Hartzog Jr.
DAN M. HARTZOG JR.
N.C. State Bar No. 35330
HARTZOG LAW GROUP LLP
1903 N. Harrison Avenue
Suite 200
Cary, North Carolina 27513
Counsel for Respondent Innovative
Talent Solutions, Inc.

